d
e
i
f
              .
                            -
                       CLOSEOUT FOR M93020009
      This case was brought to the attention of OIG by a February
 21, 1993 letter from Dr.
 complainant) He alleged that Drs.
                               and -2bject
                                           of                    (the
                                                    (Subject #1) of
                                                         # 2 ) of the
                                     data in studies that purported
 to shed new and important light on contested scientific issues.'

     OIG1s inquiry determined that the subjects made significant,
initially unreported alterations to their raw data.            The
alterations were revealed when other scientists acquired portions
of the raw data and found discrepancies between those data and the
pub1ished work.      Both the subjects and other scientists
knowledgeable in this area of research have stated publicly that
these alterations should have been reported in the papers in which
the subjects initially described their research results; OIG is
not aware of any public statements disputing this view. Arguably,
the subjects1 failure to report their data alterations might be
considered data falsification.      Subject #1 stated in an NSF
proposal written after the alterations became known that his
actions were "entirely devoid of intent to deceive, but there are
allegations that the data alterations were made inconsistently and
in ways that strengthened the case for the subjects1 scientific
conclusions.
       Many of the events in this case predate NSF1s misconduct
regulation.    Although OIG believes that its authority to
investigate misconduct in science in connection with NSF proposals
and awards derives from the agency's general mandate and predates
the misconduct regulation, no authoritative decision-maker has


        his work was sunnorted bv NSF, - (            entitled          1
    -
 - T                       their data in "-
        -7


7  - T su            1
        ~ bi ects numished                  )




                             page 1 of 2
                      CLOSEOUT FOR M93020009
ruled on this issue.2 In this context, we decided that this was
an unusually inauspicious case to pursue in consideration of the
following factors: (1) this matter has been extensively discussed
in the scientific literature and the subjects already bear the
stigma they suffered from the adverse publicity to which they have
been subject in the scientific community; (2) the events in
question took place between five and ten years before they were
brought to our .attention; (3) because many experts in the field
have already taken public positions on the scientific controversies
involved in the case, we would find it almost impossible to find
knowledgeable scientists without the appearance of bias to make a
judgment on the misconduct issue; and (4) the scientific community
is aware that the data and analyses in the subjects' work are
suspect and already possesses considerable information about the
data's limitations (so an investigation is not needed to alert
future researchers to these limitations or clarify to what degree
the data can be relied upon).
     If OIG believed that an investigation would have led to an
authoritative judgment that genuinely resolved for the scientific
community the issues of (1) whether the subjects1 failure to report
the data alterations was a serious deviation from accepted practice
and (2) whether the pattern of alterations substantiates the claim
that they were made without any culpable intent, we would have been
more inclined to proceed with this case, despite the considerations
listed in the preceding paragraph.
     Accordingly, this inquiry is closed and no further action will
be taken on this case.


CC:    Acting Deputy Assistant Inspector General, Oversight;
Assistant Inspector General, Oversight; IG




     2 ~ an
         n analogous situation, the Department of Health and Human
Services1 Departmental Appeals Board determined that the Public
Health Service (PHs) could take action regarding acts of misconduct
that predated the publication of PHs's definition of misconduct in
science. In re Sharma, DAB Decision No. 1431 (Aug. 6, 1993).
                           page 2 of 2                      M93 - 09
